                                 Closeout for M98090026

    In October 1998, a Program Officer1 told u s a reviewer2 had made a n
allegation of plagiarism regarding the subjects' NSF proposal.3 The reviewer
believed subject 14-the PI-and subject 25-the co-author-presented ideas in
the proposal a s theirs that were developed by a scientist6 and were not properly
attributed to the scientist.
    We reviewed the proposal and the scientist's papers the reviewer alleged
contained the original development of the ideas and text. Because the
allegation of intellectual theft involved the evaluation of technical material, we
consulted a Program Director7 (PD)who had expertise in the field. The PD
thought there was a possibility that the subjects had not only used the
scientist's ideas, but also proposed research the scientist had already,
essentially completed.
    The subjects told us they used the scientist's research as the starting point
of their methodology, but they believed they had given a sufficient citation to
the scientist. They told u s they did not have access to one of the papers that
the complainant thought they had made use of, and that the proposal was
based on research that they had developed from their earlier collaboration.
   Because the subjects failed to satisfactory explain the overlap of material,
we deferred further investigation to Subject 1's university (SU1) and asked it to
coordinate with Subject 2's university a s needed.8 SU17spolicy required it to
conduct an inquiry before a n investigation would be initiated.
    The inquiry committee could not ascertain the subjects7access to the
scientist's papers during the preparation of the proposal. It concluded that
Subject 1's proposal contained a n adequate citation to the scientist's research.
However, it also felt that Subject 1's use of the ideas and text should have been
more carefully acknowledged and that his failure to do so was inappropriate
scholarly conduct, but did not rise to the level of misconduct in science. The
inquiry committee concluded that there was insufficient substance to proceed
with a n investigation. The adjudicator a t SU1 concurred.



     1(redacted).
    2 (redacted).
    3 (redacted).
    4 (redacted).
    5 (redacted).
    6 (redacted).
    7 (redacted).
    8 Subject 2 had told u s Subject 1 had been responsible for the preparation of the proposal
and its submission, so we deferred to subject 1's university, and considered Subject 1 to be the
main subject.


                                          Page 1 of 2
                                                                  ......-,
                                                             ..           <
                                                             ' ,..        .<
                                                                  -   .
                           cioseout for M98090026



    After reviewing the University's report and supplementary material from
Subject 1, we agree there is insufficient substance to proceed with an
investigation, and this inquiry is closed. No further action will be taken on this
case.

cc: Investigations, IG




                                   Page 2 of 2
